IN THE UNITED STATES SUPREME COURT
OFFICE OF THE CLERK
WASHINGTON, DC 20543-0001

DAVID LOUIS WHITEHEAD,

PETITIONER,
V.
US COURT OF APPEALS FOR 8TH CIRCUIT
CASE NUMBER 21-1333
Dist. Ct. Ilcv4031

WILLIAM JEFFERSON CLINTON, GEORGE W. BUSH AND
BARRACK H. OBAMA, ET AL,
RESPONDENTS.

PROOF OF SERVICE
I, David Louis Whitehead , do swear or declare that on this date, May 28, 2021, as
required by Supreme Court Rule 29,1 have mailed PETITION FOR A WRIT OF
CERTIORARI on each party to the above proceeding or that party’s counsel, and on
every other person required to be served, by depositing an envelope containing the
above documents in the United States mail properly addressed to each of them and
with first-class postage prepaid, or by delivery to a third-party commercial carrier
for delivery within 3 calendar days.

The names and addresses of those served are as follows:
1. Paul Gaffney
Pgaffney@wc.com
Williams & Connolly LLP
725 Twelfth St. N.W.
Washington, D.C. 2005
D 202-424-5000
2. Jeffrey Kilduff
ikil duff@omm.com
O’Melveny & Myers LLP
1625 I St NW, Washington, DC 20006
3. Department of Justice
Solicitor General’s Office
askdoi@usdoi. gov
050 Pennsylvania Avenue, NW
Washington, DC 20530-0001 "

4. Cleary Gottlieb
bbyrne@cgsh.com
2112 Pennsylvania Avenue, NW
Washington, DC 20037

5. Office of General Counsel Howard University.
Lisa Gentry & c/o John Gloster
j gloster@howard.edu
Howard University
Office of the General Counsel
2400 Sixth St., NW, Suite 321
Washington, D.C. 20059,
Carol Lamm, esq, White & Case LLP,
White & Case LLP
701 Thirteenth Street, NW
Washington, District of Columbia 20005-3807

6. Covington & Burling LLP,
Eric Holder, esq
850 10th St NW, Washington, DC 20001

7. District of Columbia Attorney General Office. Karl A. Racine, esq
400 6th Street NW
Washington, D.C. 20001
8. Harvard University Office of General Counsel
Harvard University Office of the General Counsel - Cambridge, MA. Holyoke
Center, Suite 980 1350 Massachusetts Avenue Cambridge, MA 02138 - 3834

David Louis Whitehead
May 28, 2021

